February 2009
Report No. AUD-09-004


FDIC’s Controls Related to the Offsite
Review List




            AUDIT REPORT
                                                      Report No. AUD-09-004                                                             February 2009

                                                      FDIC’s Controls Related to the Offsite Review List
                                                      Audit Results
     Federal Deposit Insurance Corporation
                                                      DSC has established internal controls for performing offsite monitoring of insured financial
Why We Did The Audit                                  institutions. Specifically, each institution on the ORL must have an offsite review completed
                                                      and approved within 3½ months after the end of each quarter. We sampled 60 of the 577
The FDIC insures about 8,500 financial                institutions on the December 31, 2007 ORL and found that DSC had completed offsite reviews
institutions with assets totaling over $13 trillion   for each sampled institution, developed supervisory strategies, and documented the reviews in
and domestic deposits totaling over $6.9 trillion.
                                                      accordance with DSC policies and procedures.
The federal banking agencies (the agencies),
which include the FDIC, have developed a
number of tools for monitoring the health of          Additionally, DSC has initiated a process for periodically evaluating its offsite monitoring
individual institutions and the industry as a         systems in response to a February 2007 GAO recommendation to evaluate and monitor these
whole. The FDIC has developed eight offsite           systems. DSC plans to evaluate, on a rotational basis, its offsite monitoring systems. However,
systems to monitor insured institutions between       at the time of our audit, no details regarding a schedule or procedures for conducting
examinations. Three of these systems are used         evaluations were available, and no system evaluations had been performed.
to produce the Offsite Review List (ORL),
which identifies insured institutions with            Although the FDIC has developed an extensive offsite monitoring program, opportunities exist
potential problems (as described later). Within       for improvement. Specifically, we found that the ORL was not capturing a significant
the FDIC, the Division of Supervision and             percentage of institutions that DSC, through its risk management examinations, downgraded to
Consumer Protection (DSC) is responsible for
                                                      a 3 rating or worse, including many of the institutions that ultimately failed.
performing offsite monitoring of FDIC-insured
depository institutions.
                                                      DSC pointed out that although the ORL may not have captured a significant percentage of
The audit objective was to assess DSC’s internal      institutions that were downgraded, the same institutions may have been receiving additional
controls for performing offsite monitoring of         DSC supervisory attention through other monitoring tools. In addition to the ORL, the FDIC
insured financial institutions. The audit focused     uses several other offsite monitoring tools to monitor risks within the industry and to identify
on the controls related to offsite reviews of         potential emerging risks that may require additional supervisory follow-up—including a model
institutions on the ORL. As part of our audit,        that projects an institution’s CAMELS rating subject to a real estate crisis similar to one in New
we also reviewed DSC’s implementation of a            England in the early 1990s; a model that identifies institutions that have experienced consistent
recommendation by the Government                      rapid growth (over several quarters) and/or a funding structure that is highly dependent on non-
Accountability Office (GAO) for strengthening
                                                      core sources; a report that monitors institutions exhibiting high-risk lending activity; a report
the FDIC’s risk assessment activities through
periodic evaluations and monitoring of the            that monitors the condition of institutions that have been in operation less than 8 years; a
Corporation’s offsite monitoring systems.             quarterly monitoring program for institutions with total assets over $10 billion; and a model that
                                                      identifies institutions with characteristics that have been associated with fraud, formal regional
                                                      risk committees, and various regional monitoring programs and watch lists.
Background
                                                      Thorough and timely evaluations of the three DSC models-based offsite monitoring systems
One of the FDIC’s primary offsite monitoring
tools is the Statistical CAMELS Offsite Rating
                                                      that create the ORL are needed to determine if the assumptions and methodologies used
(SCOR) model, a statistical model that uses           reasonably support determinations for including institutions on the ORL. Further, the offsite
financial ratios and historical examination           monitoring systems used to create the ORL are largely based on historical indicators, pertaining
results to assign an offsite CAMELS rating.           to institution asset quality, earnings, and capital, that may not fully consider current and
(CAMELS is an acronym for the components              emerging risks. As a result, the ORL may not be capturing a complete picture of the risks
Capital, Asset quality, Management, Earnings,         facing 1- and 2-composite rated institutions or identifying those institutions at risk of significant
Liquidity, and Sensitivity to market risk.            ratings downgrades.
Institutions receive a composite and component
rating of 1 to 5, with 1 having the least             Using actual failure and downgrade information to test all offsite monitoring systems and
regulatory concern and 5 having the greatest          incorporating the results into evaluations of those systems could lead to a more focused ORL
concern.) SCOR is designed to identify 1- and
2-composite rated institutions that have
                                                      and a more effective and efficient offsite monitoring program. Scheduling all offsite
experienced substantial financial deterioration       monitoring systems for regular evaluations and establishing procedures to conduct the
since the last onsite examination.                    evaluations would help to assure that management’s objectives regarding offsite monitoring are
                                                      being achieved and financial risks to the FDIC’s Deposit Insurance Fund are being mitigated.
SCOR and two other risk measurement systems,
SCOR-Lag and the Growth Monitoring System,
are used to produce the ORL each quarter. The
                                                      Recommendations and Management Response
ORL consists of 1- and 2-rated institutions that
have been identified with potential problems or We recommended that DSC: (1) validate the assumptions and methodology used in SCOR;
pose the risk of being downgraded to a 3 rating (2) ensure that the regular evaluations of all offsite monitoring systems used to create the ORL
or worse at the next examination.               are performed as scheduled; and (3) establish procedures to evaluate all models-based offsite
                                                monitoring systems and, as part of these procedures, consider recent failure and downgrade
DSC’s Case Manager Procedures Manual            information to test the efficacy of the logic and assumptions used in the offsite monitoring
requires an analysis of all institutions on the systems. In its response to the audit, DSC stated that it concurred with the recommendations
ORL so an appropriate supervisory strategy can  and completed the recommended actions. Additionally, DSC provided comments regarding the
be developed, as warranted.                     accuracy of the ORL as a predictive tool and stated that DSC had completed the first of the
                                                GAO-recommended evaluations.
To view the full report, go to www.fdicig.gov/2009reports.asp
Contents                                                               Page

BACKGROUND                                                               2

RESULTS OF AUDIT                                                         5

CONTROLS FOR PERFORMING OFFSITE REVIEWS                                  7

EFFECTIVENESS OF THE ORL                                                 8
   Guidance Related to Ensuring the Effectiveness of the ORL             8
   Accuracy of the ORL in Identifying Problem Institutions               8
      Failed Institutions That Were Not Identified on ORLs               9
      Downgraded Institutions That Were Not Identified on ORLs           9
   Division of Insurance and Research Analysis of SCOR’s Performance     9
   Implementation of a GAO Recommendation Related to Evaluating         11
    Offsite Monitoring Systems
   Conclusion                                                           12
   Recommendations for Enhancing the Effectiveness of the ORL           12

CORPORATION COMMENTS AND OIG EVALUATION                                 12

APPENDICES
  1. OBJECTIVE, SCOPE, AND METHODOLOGY                                  14
  2. THE FDIC’S OFFSITE MONITORING TOOLS                                17
  3. OIG ANALYSIS OF WHETHER FAILED INSTITUTIONS WERE                   19
      ON THE ORL PRIOR TO FAILURE
  4. CORPORATION COMMENTS                                               20
  5. MANAGEMENT RESPONSE TO RECOMMENDATIONS                             25
  6. ACRONYMS USED IN THE REPORT                                        26

TABLES
  1. Offsite Review Dates                                                5
  2. Sample of Institutions from the December 31, 2007 ORL               7
  3. Number of Insured and Supervised Institutions, by Regulator        14

FIGURE
  Number of Institutions on the ORLs Since 2006                          4
Federal Deposit Insurance Corporation                                                             Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                              Office of Inspector General



DATE:                                     February 19, 2009

MEMORANDUM TO:                            Sandra L. Thompson, Director
                                          Division of Supervision and Consumer Protection


                                          /Signed/
FROM:                                     Russell A. Rau
                                          Assistant Inspector General for Audits

SUBJECT:                                  FDIC’s Controls Related to the Offsite Review List
                                          (Report No. AUD-09-004)


This report presents the results of our audit of the FDIC’s controls related to one of its
offsite monitoring tools—the Offsite Review List (ORL). 1 The audit objective was to
assess the FDIC’s internal controls for performing offsite monitoring of insured financial
institutions. We focused the audit on the Division of Supervision and Consumer
Protection’s (DSC) controls pertaining to offsite reviews of institutions on the FDIC’s
ORL, which identifies insured institutions with 1 and 2 composite ratings and potential
problems that pose the risk the institution will be downgraded at the next examination. 2
As part of our audit, we also reviewed DSC’s implementation of a recommendation by
the Government Accountability Office (GAO), 3 pertaining to strengthening the FDIC’s
risk assessment activities through periodic evaluations and monitoring, including offsite
monitoring.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Appendix 1 of this report discusses our audit objective, scope, and
methodology in detail.




1
  The ORL is described in more detail in the Background section of this report. It is important to note that
DSC uses several other offsite monitoring tools to monitor risks within the industry and to identify
potential emerging issues that may require additional supervisory follow-up.
2
  Under the Uniform Financial Institutions Rating System (UFIRS), each financial institution is assigned a
composite rating by a federal or state banking agency based on an evaluation and rating of six essential
components of an institution’s financial condition and operations. These component factors address the
adequacy of Capital, the quality of Assets, the capability of Management, the quality and level of Earnings,
the adequacy of Liquidity, and the Sensitivity to market risk (otherwise known as CAMELS).
3
  Report Number GAO-07-255, Federal Deposit Insurance Corporation: Human Capital and Risk
Assessment Programs Appear Sound, but Evaluations of Their Effectiveness Should Be Improved, dated
February 15, 2007.
BACKGROUND

    Section 10(d) of the Federal Deposit Insurance Act requires annual onsite examinations
    of each insured financial institution at least once during each 12-month period. 4 Annual
    examination intervals may be extended to 18 months if the insured institution has assets
    totaling less than $500 million and is well managed and well capitalized. As stated in the
    FDIC Banking Review, 2003, Volume 15, No. 3, onsite examinations provide the most
    complete and reliable information about an institution’s financial health, and the federal
    banking agencies regard CAMELS ratings as the single best indicator of an institution’s
    condition. However, subsequent to a completed onsite examination, an institution’s
    financial condition may change, so the CAMELS ratings may no longer accurately reflect
    the institution’s current condition. Therefore, the FDIC has developed various offsite
    tools, including the ORL, to monitor insured institutions between examinations.

    As identified in the Offsite Review Program section of the Case Manager Procedures
    Manual (Procedures Manual), DSC developed eight risk measures for monitoring the
    condition of individual institutions. These eight risk measures use offsite data to assist in
    monitoring the risk of about 8,500 insured institutions (including non-FDIC supervised
    institutions). The eight measures use information reported in financial institutions’
    quarterly Consolidated Reports of Condition and Income (Call Report) and Thrift
    Financial Reports (TFR). Information from the measures may also aid examiners in
    planning for an onsite examination. The eight measures are described below.

          •    The Statistical CAMELS Offsite Rating (SCOR) model uses statistical techniques
               to measure the likelihood that an institution will receive a ratings downgrade at
               the next examination. The output of the model is derived from historical
               examination results as well as from Call Report and TFR data.

          •    SCOR-Lag, a derivation of SCOR, attempts to more accurately assess the
               financial condition of rapidly growing banks.

          •    The Growth Monitoring System (GMS) identifies institutions experiencing rapid
               growth and/or with a funding structure highly dependent on non-core funding
               sources.

          •    The Real Estate Stress Test (REST) projects an institution’s CAMELS rating
               subject to a real estate crisis similar to that in New England in the early 1990s.

          •    Consistent Grower is a cumulative growth score measure using up to 20 quarters
               of GMS scores.

          •    The Quarterly Lending Alert (QLA) monitors institutions exhibiting high-risk
               lending activity such as subprime lending.


    4
        12 United States Code 1820(d).

                                                     2
   •   Young Institutions identifies institutions that are less than 8 years old.

   •   Multiflag combines the multiple risk measures discussed above.

Three of these eight measures are used to produce the quarterly ORL: the SCOR, SCOR-
Lag, and GMS. The ORL consists of 1- and 2-composite rated institutions that are
(1) identified by SCOR or SCOR-Lag with a 35 percent or higher probability of being
downgraded to a 3 rating or worse at the next examination or (2) flagged by the GMS as
being in the 98th or higher growth percentile.

DSC stated that it uses several other offsite monitoring tools to monitor risks within the
industry and to identify potential emerging issues that may require additional supervisory
follow-up. These tools (details are in Appendix 2) include, but are not limited to, the
following:

   •   Large Insured Depository Institution (LIDI) Program.
   •   Internal Control Assessment Rating System (ICARuS) and Risk Analysis Center
       (RAC) Dashboard.
   •   Regional Watch Lists.
   •   Regional Offsite Monitoring and Supervisory Strategies.
   •   Regional Risk Committees.
   •   Quarterly Supervisory Risk Profile.

According to DSC, it created and staffed two new sections in 2008 to strengthen the
examination program and enhance the risk assessment process, including offsite review.
These sections are: (1) the Risk Analysis Section, which analyzes offsite information
available through various monitoring systems, together with specific information
gathered during examinations, to proactively identify risks and trends; and (2) the
Emerging Issues Section, which was created to enhance the Corporation’s ability to
develop proactive forward-looking bank supervision policy and conduct offsite
monitoring of various institutional risks.

Information in DSC’s Virtual Supervisory Information on the Net (ViSION) System
shows that the number of institutions on the ORL has been increasing significantly since
2006, as shown in the figure, which follows.




                                              3
Number of Institutions on the ORLs Since 2006


 900



 800
                                                                                                  842

 700



 600
                                                                                        577

 500



 400
                                                                               408

                                                                    347
 300
                                                        298
                                             252
                                   246
 200                      218

                 161
 100



   0         3/31/06   6/30/06   9/30/06   12/31/06   3/31/07   6/30/07   9/30/07    12/31/07   3/31/08



       Source: Office of Inspector General (OIG) analysis of ViSION system information.



Examiner Guidance

Section 13 of the Procedures Manual discusses the Offsite Review Program, including:
(1) definitions of the eight risk measures, (2) generation of the ORL based on updated
quarterly Call Report data, (3) deadlines for conducting an offsite review, (4) the
reviewer’s documented findings and supervisory strategy in the Offsite Module of
ViSION, and (5) ViSION comments on reviews that found medium or high levels of risk.
The Procedures Manual does not provide specific step-by-step instructions for
completing the offsite review; rather, it provides a general overview of the Offsite
Review Program.

According to the Procedures Manual, “[E]ach institution on the ORL must have an
Offsite Review and will appear in the Active Tasks of the appropriate Case Manager or
Field Supervisor in ViSION.” Case Managers or Field Supervisors perform the offsite
reviews to determine whether supervisory attention is warranted before the next regularly
scheduled examination or a rating change should be initiated, if the review indicates that
the institution poses a greater risk to the insurance fund than indicated by the composite
rating. The manual also states that offsite reviews must be completed and approved
within 3½ months after each Call Report date. Table 1, which follows, shows the
schedule for completing and approving offsite reviews.




                                                                           4
     Table 1: Offsite Review Dates
      Call Report           Call Report                        Offsite Reviews
      Date                  Finalized                          Approved
      March 31              May 31                             July 15
      June 30               August 31                          October 15
      September 30          November 30                        January 15
      December 31           February 28                        April 15
     Source: The Case Manager Procedures Manual.



    Prior Related Audit Attention

    In February 2007, the GAO issued a report entitled, Federal Deposit Insurance
    Corporation: Human Capital and Risk Assessment Programs Appear Sound, but
    Evaluations of Their Effectiveness Should Be Improved (Report No. GAO-07-255). In its
    report, the GAO noted that the FDIC has an extensive risk assessment system and
    contingency plans for bank failures but had not comprehensively or routinely evaluated
    the system or plans. Although the GAO noted that the FDIC had conducted a one-time
    analysis of the performance of SCOR, the GAO also noted that the FDIC was not
    regularly evaluating its offsite monitoring systems for reliability and underscored the
    need for the Corporation to perform more regular reviews. The GAO recommended that

           . . . to strengthen the oversight of its risk assessment activities, the FDIC should develop
           policies and procedures clearly defining how it will systematically evaluate and monitor
           its risk assessment activities and ensure that required evaluations are conducted in a
           comprehensive and routine fashion.

    In response to the GAO report, the Corporation stated:

           We agree that it would be beneficial to review our risk assessment activities to ensure
           they are comprehensive, appropriate to our mission, and fully evaluated. As noted in the
           GAO draft report, a review of FDIC offsite monitoring systems has been completed, and
           work continues to implement needed changes.

           Beginning in January 2007, an interdivisional committee will perform an in-depth review
           of current risk assessment activities and evaluation procedures. By September 30, 2007,
           the committee will make recommendations to FDIC executive management as to how we
           might strengthen the risk assessment framework. At that time, management will establish
           a reasonable timeline to implement any required changes.


RESULTS OF AUDIT

    DSC has established an internal control process for performing offsite monitoring of
    insured financial institutions identified on the ORL. The internal control process
    includes: (1) scheduling and performing offsite reviews for each institution on the ORL;
    (2) documenting the analyses performed as part of each review, including a supervisory
    strategy; and (3) requiring a supervisory approval of the reviews performed. We sampled

                                                     5
60 of the 577 institutions on the December 31, 2007 ORL and found that DSC had
completed offsite reviews for each sampled institution and documented the reviews in
accordance with DSC policies and procedures, including specifying a supervisory
strategy. Further, there was evidence of supervisory review for each of the offsite
reviews in our sample (Controls for Performing Offsite Reviews).

Although DSC has developed an extensive offsite review program using a variety of
sources – including the LIDI program, the QLA, and Regional Watch Lists – to monitor
financial institution condition, the ORL was not capturing a significant percentage of
institutions that DSC, through its risk management examinations, downgraded to a 3
rating or worse, as illustrated below.

   •   For 20 institutions that failed from January 2001 through July 2008, which were
       rated 1 or 2 in an examination during that period, 13 institutions (65 percent) did
       not appear on an ORL in the 4 quarters prior to the quarter each institution was
       downgraded to a 3, 4, or 5 rating (see Appendix 3).

   •   Of the 223 institutions that were downgraded by 2 or more ratings from 2002
       through 2007, 151 institutions (68 percent) did not appear on an ORL in the
       4 quarters prior to the downgrades.

   •   From 1998 through 2007, SCOR did not flag 2,011 (88 percent) of 2,281
       institutions that were eventually downgraded to a 3 rating or worse (referred to by
       DSC as a Type I Error – the percentage of downgraded institutions that SCOR did
       not identify as problem institutions).

   •   From 1998 through 2007, SCOR flagged 832 institutions of which 562
       (68 percent) were not downgraded (referred to by DSC as a Type II Error – the
       percentage of institutions that were identified by SCOR but were not downgraded
       in a subsequent examination).

The assumptions and methodologies in SCOR have not been updated since 2003.
Further, the offsite monitoring systems used to create the ORL are largely based on
historical indicators pertaining to institution asset quality, earnings, and capital that may
not fully consider current and emerging risks. As a result, the ORL may not be capturing
a complete picture of the risks facing 1- and 2-rated institutions or identifying those
institutions at risk of significant ratings downgrades.

Additionally, DSC has initiated a process for periodically evaluating the three models-
based systems that determine the ORL in response to a February 2007 GAO
recommendation to evaluate and monitor these systems. DSC plans to evaluate, on a
rotational basis, all of its offsite monitoring systems. However, at the time we completed
our audit fieldwork, no details regarding a schedule or procedures for conducting
evaluations were available, and no system evaluations had been performed.




                                              6
    Validation of the assumptions and methodology used in SCOR is needed on a priority
    basis to determine if the performance of the system could be enhanced. In addition,
    thorough evaluations of the three DSC offsite monitoring systems that create the ORL are
    needed on a regular basis to determine if the assumptions and methodologies used
    reasonably support determinations for including institutions on the ORL. Using actual
    failure and downgrade information to test offsite monitoring systems and incorporating
    the results into evaluations of those systems could lead to a more focused ORL and a
    more effective and efficient offsite monitoring program. Scheduling all offsite
    monitoring systems for regular evaluations and establishing procedures to conduct the
    evaluations would help to assure that management’s objectives regarding offsite
    monitoring are being achieved and financial risks to the FDIC’s Deposit Insurance Fund
    are being mitigated (Effectiveness of the ORL).


CONTROLS FOR PERFORMING OFFSITE REVIEWS

    DSC has established an internal control process for performing offsite reviews of insured
    institutions appearing on the ORL. Such controls include making an assessment of risk,
    identifying a supervisory strategy, documenting analyses performed, and requiring
    supervisory approval of the reviews. We sampled 60 of the 577 institutions on the
    December 31, 2007 ORL. For all 60 institutions, we found that DSC Case Managers or
    Field Supervisors had complied with guidance in the Procedures Manual. Specifically, a
    reviewer completed an offsite review for each institution, identified a risk level and trend,
    identified a supervisory strategy, and documented the review in ViSION. We also found
    that each review had been approved by an Assistant Regional Director (ARD), as
    required by the policy. Further, for those institutions not regulated by the FDIC, we
    found that Case Managers or Field Supervisors contacted the appropriate regulators to
    discuss supervisory strategies for each of the sampled institutions whose overall risk level
    was expected to sufficiently change over the next 12-month period. The results of our
    sample are shown in Table 2.


    Table 2: Sample of Institutions from the December 31, 2007 ORL
     Federal Regulator         Sampled          Risks         Supervisory     Contacts with
                              Institutions    Identified     Strategy Noted   the Regulator
            FDIC                   41            Yes               Yes              3
        Office of the               8            Yes               Yes              5
     Comptroller of the
      Currency (OCC)
      Office of Thrift             8             Yes              Yes              5
     Supervision (OTS)
     Board of Governors            3             Yes              Yes              2
       of the Federal
      Reserve System
           (FRB)
    Source: OIG analysis and information in the ViSION system.




                                                       7
      Because we noted no matters warranting additional management action, we made no
      recommendation in this area related to the audit objective.


EFFECTIVENESS OF THE ORL

      The ORL has not been as effective in capturing problem institutions as it should be.
      Although DSC has developed an extensive offsite monitoring program that utilizes a
      multitude of other systems and ad hoc reports to address emerging risks, DSC has not
      regularly validated the underlying assumptions and methodologies for the models-based
      component of the system or conducted regular evaluations of the models used to create
      the ORL. This led the GAO to recommend that the FDIC strengthen the oversight of its
      risk assessment activities and systematically evaluate these activities. The assumptions
      and methodologies in SCOR have not been updated since 2003. Further, the offsite
      monitoring systems used to create the ORL are largely based on historical financial
      information, provided by the financial institution, that may not be accurate and may not
      fully consider current and emerging risks. As a result, the FDIC’s offsite monitoring
      systems may not be capturing a complete picture of the current and emerging risks facing
      1- and 2-rated institutions or identifying those institutions at risk of significant ratings
      downgrades.


Guidance Related to Ensuring the Effectiveness of the ORL

      FDIC Circular 4010.3, FDIC Enterprise Risk Management Program, adopted internal
      control standards prescribed in GAO publication, Standards for Internal Control in the
      Federal Government. The GAO standards apply to all operations (programmatic,
      financial, and compliance) and are intended to ensure the effectiveness and efficiency of
      operation, reliability of financial reporting, and compliance with applicable laws and
      regulations. Circular 4010.3 requires management to develop and implement controls to
      ensure that management directives are carried out and to provide reasonable assurance that
      controls are sufficient to minimize exposure to waste, fraud, and mismanagement. The
      circular also requires management to perform monitoring activities to assess the quality of
      performance over time and the effectiveness of controls. Key control activities described
      in the circular, as they relate to offsite monitoring, include routine management and
      supervisory actions; transaction comparisons and reconciliations; other actions taken in
      the course of normal operations; as well as separate and discrete control evaluations,
      including internal self-assessments and external reviews.


Accuracy of the ORL in Identifying Problem Institutions

      To assess the effectiveness of the ORL in identifying institutions at risk of being
      downgraded, we analyzed ORL and CAMELS ratings information available on failed
      institutions from January 2001 through July 31, 2008 and on institutions that had been



                                                   8
      downgraded by two or more ratings from 2002 through 2007. The results of our analysis
      are discussed below.


      Failed Institutions That Were Not Identified on ORLs. Of the 20 institutions that
      failed from January 2001 through July 2008 and were rated 1 or 2 in an examination
      during that period, 13 institutions (65 percent) did not appear on an ORL in the 4 quarters
      prior to the quarter they were downgraded to a 3, 4, or 5 rating (see details in
      Appendix 3). 5 In its response to these statistics, DSC stated:

              . . . 7 of the 13 institutions that failed and did not appear on the ORL had fraud as a
              contributing factor for failure. The statistical models used to generate the ORL rely on
              Call and Thrift Financial Report data and cannot detect deteriorating financial conditions
              when banks or thrifts misstate their financial information. In addition, another institution
              was extensively monitored through the LIDI program and also did appear on the ORL for
              the period from 9/30/00 to 12/31/07. After excluding these eight institutions, the ORL
              identified 7 of the 12 failures (58 percent) in the 4 quarters prior to the quarter the
              institutions were downgraded.


      Downgraded Institutions That Were Not Identified on ORLs. We obtained a list
      from FDIC officials of 223 institutions rated 1 or 2 that had been downgraded by 2 or
      more ratings from 2002 through 2007. When we compared these institutions to the ORLs
      created during that time period, we found that 151 institutions (68 percent) did not appear
      on an ORL in any of the 4 quarters prior to the multiple downgrade despite, in many
      cases, significant financial deterioration. Our results indicate that actual failure and
      downgrade information would be useful in testing the efficacy of the assumptions and
      methodologies used in the offsite monitoring systems.


Division of Insurance and Research Analysis of SCOR’s Performance

      DSC provided us with a memorandum, dated February 4, 2008, summarizing a Division
      of Insurance and Research (DIR) analysis of SCOR’s performance from 1985 to the first
      quarter in 2007. The memorandum states that SCOR’s performance was evaluated in
      terms of whether the model was able to correctly identify banks that were subsequently
      downgraded. DIR’s analysis showed that from 1998 through 2007, SCOR did not flag
      2,011 (88 percent) of 2,281 institutions that were eventually downgraded to a 3 rating or
      worse and that SCOR flagged 832 institutions of which 562 (68 percent) were not
      downgraded in a subsequent examination. According to the memorandum, during
      periods of economic expansion and growth:


      5
        Since 2001, the FDIC has resolved 32 institution failures with estimated costs to the Deposit Insurance
      Fund (DIF) that could exceed $10 billion. We reviewed ViSION information on the failed institutions for
      the 4 quarters before they were downgraded to a 3 rating or worse to determine whether the institutions had
      appeared on an ORL. We were not able to assess 12 of the 32 institutions because those institutions were 3
      rated or worse prior to 2000, and ORL information was not available in ViSION prior to 2000.

                                                           9
       . . . institutions are more likely to be downgraded for non-financial reasons (such as
       incompetent management, fraud, etc.). In such periods, a financial conditions model such
       as SCOR, which identifies institutions based purely on the financial ratios, is more likely
       to miss the downgrades.

DIR’s analysis points to potential issues related to the accuracy of the SCOR model.
DSC stated that it recognized the limitations of offsite monitoring models and does not
rely solely on these models to evaluate the potential risks posed by financial institutions.

In 2005, an FDIC interdivisional team completed a project to review and evaluate the
FDIC’s offsite monitoring systems and tools for their effectiveness and efficiency and to
identify opportunities to improve the offsite monitoring process. The Offsite Monitoring
Project’s Summary Report and Recommendations stated that, as of June 2005, 283
(60 percent) of 472 institutions with a composite rating of 3 or worse were not identified
on a single ORL between June 2001 and March 2005. This interdivisional effort
recommended that the selection criteria for the ORL incorporate trend analysis, other
statistical measures, and other factors (such as output from other models combined with
contributing or mitigating risk factors) to increase the overall predictive capability of the
list. The project also recommended that a core set of profiles be established for
institutions that migrate to a composite 3 rating and that these profiles be statistically
compared to the output from other models. Additionally, the project report included
recommendations to improve the performance of SCOR, SCOR-Lag, GMS, and other
FDIC offsite monitoring tools. However, we found no evidence that the
recommendations had been implemented.

In 2003, the FDIC published an article about SCOR, noting that its performance has
declined particularly in good economic periods. The article noted:

       The low level of accuracy might be expected inasmuch as SCOR relies completely on
       financial ratios. Any such model will probably be more accurate when the reasons for
       downgrades are financial, and less accurate when the reasons have to do with some
       aspect of bank operations that does not affect the bank’s financial ratios. For example,
       examiners may downgrade a bank because they discover that it has significantly
       weakened its underwriting standards or has weak internal controls—but as long as the
       more risky loans have not become past due, problems might not have made their way to
       the financial statements. Consequently, one might reasonably expect that SCOR would
       be less accurate over the last decade. The reliance on financial data has several other
       effects on SCOR’s performance. For one thing, it means that SCOR is completely
       dependent on the accurate reporting of financial information.

DSC officials we interviewed reiterated that SCOR relies on the financial information
reported by institutions in Call Reports and TFRs. To the extent this information is
inaccurate, the ORL may be impacted. According to DSC officials, DSC has begun
looking at this issue by assessing whether institutions that were downgraded and not
detected by SCOR eventually filed amended Call Reports. That review was still ongoing
at the time of issuance of this report.



                                               10
      DSC also indicated that in 2008, it implemented ICARuS as an offsite risk monitoring
      tool to identify institutions, between examinations, that may warrant increased
      supervisory attention because of an increased susceptibility to fraud. ICARuS was
      developed as a solution for identifying certain management-related characteristics,
      financial indices, and trends that were common among the failures and near failures not
      identified by SCOR.


Implementation of a GAO Recommendation Related to Evaluating Offsite
Monitoring Systems

      GAO’s February 2007 report noted that SCOR is informative but does not always
      produce accurate results. GAO further noted that such a finding and the FDIC’s limited
      evaluation of its other offsite monitoring systems underscore the need for more regular
      reviews. GAO recommended that, “to strengthen the oversight of its risk assessment
      activities, the FDIC should develop policies and procedures clearly defining how it will
      systematically evaluate and monitor its risk assessment activities and ensure that required
      evaluations are conducted in a comprehensive and routine fashion.”

      In response to the GAO report, the Corporation stated that an interdivisional committee
      would perform an in-depth review of its risk assessment activities and evaluation
      procedures. As part of that review, the FDIC would seek to improve its offsite
      monitoring systems. The plan for this effort included the development of an Offsite
      Models and Systems Validation Program. As part of the validation program, the FDIC
      planned to conduct two types of reviews—a logical and conceptual soundness review of
      the offsite systems, performed over a 4-year period, and a backtesting (outcome analysis)
      review to be performed annually as follows:

         •   2008—SCOR and SCOR-Lag
         •   2009—GMS and Consistent Grower
         •   2010—Real Estate Stress Test
         •   2011—MultiFlag, Young Institutions, and Quarterly Lending Alert

      The backtesting reviews would include analyses of (1) trends in the number of
      institutions flagged, (2) analyses of trends in the underlying model or system ratios, and
      (3) a comparison of the model or system predictions to actual results.

      In addition, DSC completed a study of the impact of fraud on financial institution failures
      and near failures over an 8-year period. The study identified certain management-related
      characteristics, financial indices, and trends that were common among the failures and
      near failures. One of the study’s primary recommendations was that DSC should develop
      an offsite monitoring system that identifies the presence of these characteristics and
      measures an institution’s susceptibility to fraud. As a result, in May 2008, DSC
      implemented ICARuS, which identifies institutions that may warrant increased
      supervisory attention between examinations because of an increased susceptibility to



                                                   11
      fraud. According to DSC officials, ICARuS results, used in conjunction with SCOR
      data, improve the overall offsite monitoring results.


Conclusion

      Validation of the assumptions and methodology used in SCOR is needed on a priority
      basis to determine if the performance of the system could be enhanced. In addition,
      thorough evaluations of all DSC offsite monitoring systems that create the ORL are
      needed on a regular basis to determine whether the assumptions and methodologies used
      reasonably support determinations for including institutions on the ORL. Using actual
      failure and downgrade information to test offsite monitoring systems and incorporating
      the results into evaluations of those systems could lead to a more focused ORL and a
      more effective and efficient offsite monitoring program. Scheduling all models-based
      offsite monitoring systems for regular evaluations and establishing procedures to conduct
      the evaluations would help to assure that management’s objectives regarding offsite
      monitoring are being achieved and financial risks to the DIF are being mitigated.


Recommendations for Enhancing the Effectiveness of the ORL

      We recommend that the Director, DSC:

         (1) Validate the assumptions and methodology used in SCOR.

         (2) Ensure that the regular evaluations of all offsite monitoring systems used to
         create the ORL are performed as scheduled.

         (3) Establish procedures to evaluate all models-based offsite monitoring systems. As
         part of these procedures, assess recent failure and downgrade information to test the
         efficacy of the logic and assumptions used in the offsite monitoring systems.


CORPORATION COMMENTS AND OIG EVALUATION

      On February 10, 2009, the Director, DSC, provided a written response to the draft of this
      report. Management’s response is presented in its entirety in Appendix 4. Management
      concurred with our recommendations and stated it had completed the recommended
      actions.

      Regarding validation, DSC stated that DSC and DIR will validate the assumptions and
      methodology used in SCOR by reviewing the offsite models that comprise SCOR on an
      annual rotational basis. With respect to evaluations of all offsite monitoring systems,
      DSC stated that DSC and DIR approved a regular validation schedule and has completed
      the first of the scheduled annual reviews. Further, DSC stated that it has established
      procedures to evaluate all models-based offsite monitoring systems. The procedures
      include: analyzing trends, performing statistical analyses of model logic and

                                                 12
assumptions, and providing a summary of related research findings pertaining to the
financial performance and CAMELS rating trends. The first of these evaluations was
completed in December 2008, according to DSC.

A summary of management’s response to each recommendation is in Appendix 5. DSC’s
planned actions are responsive to our recommendations and the recommendations are
resolved. Management indicated that it had completed the recommended actions; we will
close the recommendations after reviewing those actions.




                                          13
                                                                                                  APPENDIX 1
                             OBJECTIVE, SCOPE, AND METHODOLOGY


Objective

      The audit objective was to assess the FDIC’s internal controls for performing offsite
      monitoring of insured financial institutions. We focused the audit on the DSC controls
      pertaining to offsite reviews of institutions on the FDIC’s ORL, which identifies insured
      1- and 2-rated institutions with potential problems. As part of our audit, we also
      reviewed DSC’s implementation of a recommendation by GAO, pertaining to
      strengthening the FDIC’s risk assessment activities through periodic evaluations and
      monitoring, including offsite monitoring. We conducted this performance audit from
      April 2008 through July 2008 in accordance with generally accepted government auditing
      standards. Those standards require that we plan and perform the audit to obtain
      sufficient, appropriate evidence to provide a reasonable basis for our findings and
      conclusions based on our audit objectives. We believe that the evidence obtained
      provides a reasonable basis for our findings and conclusions based on our audit objective.


Scope and Methodology

      The FDIC insures deposits at approximately 8,500 institutions and supervises about 5,200
      institutions as shown in Table 3 below.

       Table 3: Number of Insured and Supervised Institutions, by Regulator
                   Number of        Total            Domestic         Estimated Insured
      Supervisor   Institutions     Assets*          Deposits*        Deposits*
      FDIC         5,197                $ 2,180,697       $1,582,951          $1,091,571
      OCC          1,632                  7,782,387        3,590,744           1,995,866
      FRB            878                  1,519,012          845,494             502,812
      OTS            826                  1,556,670          892,592             696,835
      Totals       8,533               $13,038,765        $6,911,780          $4,287,084
          Source: The FDIC Quarterly Banking Profile, dated December 31, 2007.
            * Dollars in millions.

      During this audit, we selected a judgmental sample 6 of 60 of 577 institutions from the
      December 31, 2007 ORL to determine whether DSC had completed offsite reviews for
      each of the sampled institutions and developed supervisory strategies in accordance with
      DSC policies and procedures. We also evaluated the FDIC’s implementation of GAO’s
      recommendation to strengthen its risk assessment activities, as it relates to offsite
      monitoring.

      For the sampled institutions, we:

                     o Reviewed the ORL data.


      6
        The results of a non-statistical sample cannot be projected to the intended population by standard
      statistical methods.

                                                           14
                                                                                     APPENDIX 1


                     o   Ensured that offsite reviews were completed in accordance with the
                         Procedures Manual instructions for offsite reviews.

      Additionally, we:

                     o   Reviewed memoranda and other documents related to the planning and
                         performance of the offsite monitoring program.

                     o   Discussed other agencies’ offsite monitoring programs with DSC.

                     o   Compared institutions that either failed or were downgraded by two or
                         more ratings to those institutions listed on the ORLs during the same
                         periods.


Internal Control

      The audit focused on the controls related to offsite monitoring and reviews of institutions
      on the ORL. These controls included policies and procedures contained in the
      Procedures Manual, which describes steps the FDIC should take in performing offsite
      reviews.


Reliance on Computer-processed Information

      For purposes of the audit, we used computer-processed information provided in the
      ViSION system to support our significant findings, conclusions, and recommendations.
      To assess the reliability of this information, we tested the process for a sample of 60
      institutions. The testing of computer-processed information was limited to our
      comparison of specific data elements, such as SCOR ratings, risk flags, asset size, level
      of risk, risk trend, and relevant follow-up codes 7 for the 60 sampled financial institutions
      on the ORL. Additionally, we used the ViSION system to review examiner and
      supervisory comments from the other regulators and determine the timeliness of reviews
      by the Case Managers and Field Supervisors and of ARD approvals of the supervisory
      strategies.


Performance Measurement

      We reviewed FDIC performance plans and strategic plans to determine whether the
      Corporation has established quantifiable performance measures related to its efforts to
      identify risk in institutions through the ORL. The Corporation has not established
      performance measures related to the ORL.



      7
          The follow-up codes are None, Continued Monitoring, or Onsite Activity.

                                                           15
                                                                                   APPENDIX 1


Compliance With Laws and Regulations

      We determined that there were no applicable laws and regulations directly related to
      offsite monitoring. In addition, we assessed the risk of fraud and abuse related to the
      audit objective in the course of evaluating audit evidence.


Prior Coverage

      In September 2002, we issued Audit Report No. 02-033 entitled, Statistical CAMELS
      Offsite Rating Review Program for FDIC-Supervised Banks. The audit objectives were
      to determine the effectiveness of SCOR as an early warning system and assess actions
      taken by DSC. The audit concluded that the effectiveness of the SCOR review program
      in detecting potential deterioration in the financial condition of insured depository
      institutions was limited because (1) a time lag of up to 4½ months existed between the
      date of the Call Report and the subsequent offsite review; (2) SCOR depends on the
      accuracy and integrity of Call Report information to serve as an early warning between
      examinations; (3) SCOR does not assess institution management quality and internal
      control or capture risks from non-financial factors such as market conditions, fraud, or
      insider abuse; and (4) DSC Case Managers rarely initiate follow-up action to address
      probable downgrades identified by SCOR other than deferring to a past, present, or future
      examination.

      In February 2007, GAO issued a report entitled, Federal Deposit Insurance Corporation:
      Human Capital and Risk Assessment Programs Appear Sound, but Evaluations of Their
      Effectiveness Should Be Improved, Report No. GAO-07-255. GAO noted that SCOR is
      informative but does not always produce accurate results. GAO further noted that such a
      finding and the FDIC’s limited evaluation of its other offsite monitoring systems
      underscore the need for more regular reviews. GAO recommended that, to strengthen the
      oversight of its risk assessment activities, the FDIC should develop policies and
      procedures clearly defining how it will systematically evaluate and monitor its risk
      assessment activities and ensure that required evaluations are conducted in a
      comprehensive and routine fashion




                                                  16
                                                                                       APPENDIX 2
                     THE FDIC’S OFFSITE MONITORING TOOLS


    According to DSC, in addition to the ORL, the FDIC has established several other
    offsite monitoring tools that are used to monitor risks within the industry and to
    identify potential emerging issues that may require additional supervisory follow-up.
    The FDIC provided brief descriptions of these tools, as follows:


    •   Large Insured Depository Institution Program – Quarterly offsite review
        program for institutions rated 3, 4, or 5 and with more than $3 billion in assets and
        all institutions with more than $10 billion in assets, including non-FDIC regulated
        institutions.


    •   Internal Control Assessment Rating System and RAC Dashboard – In early
        2006, an interdivisional executive sponsor team using resources from DSC and
        DIR was created to oversee efforts to enhance the FDIC’s offsite monitoring
        programs. The team developed ICARuS, an offsite monitoring system designed
        to identify institutions that may be more susceptible to fraud, and the RAC
        Dashboard. The RAC Dashboard is an information management tool to organize
        and synthesize key data about external risks to the banking industry. The
        components of the Dashboard reflect six major sources of risk: credit, economic,
        financial, large bank, market, and supervisory. The Dashboard consists of a set of
        risk indices that reflect underlying conditions in each of the risk areas. The index
        calculations rely on the quantitative as well as the subjective analysis of subject
        matter experts. Combining all relevant information into this simple risk index
        measure allows for consistent and meaningful interpretation both within and
        across business units. The Dashboard is an interdivisional project of the RAC; it
        is not intended to supplant the expertise of individual FDIC business units, but
        rather is meant to engage different divisions in a joint interpretation of risk data
        for the FDIC’s National Risk Committee (NRC) 8 and other organizations within
        the Corporation.


    •   Regional Watch Lists – Include institutions that are tracked and reported on by
        the regions in the Automated Regional Information System. The regional offices
        forward the watch lists to the Washington Office in the form of monthly status
        reports and include institutions listed on the Regional Bank Secrecy Act watch
        lists and Regional QLAs, which include institutions with significant exposures to
        subprime and nontraditional mortgage products.




8
 The NRC identifies and evaluates the most significant external business risks facing the FDIC and the
banking industry. Members of the committee include the Chief Operating Office; Chief Financial Officer;
Deputy to the Chairman; Special Advisor to the Chairman; Directors for DSC, DIR, and the Division of
Resolutions and Receiverships; and the General Counsel.

                                                  17
                                                                        APPENDIX 2


•   Regional Offsite Monitoring and Supervisory Strategies – Various strategies
    are continually developed by the regional offices for areas of concern germane to
    each area of the country, including areas experiencing economic downturns such
    as Puerto Rico; states affected by deterioration in the auto industry; areas with
    heightened commercial real estate concentrations; etc.


•   Regional Risk Committees – Meet regularly to discuss current and emerging
    risks and to rank them in order of priority. These risks are monitored on an
    interdivisional basis, and material concerns are conveyed to the FDIC’s NRC.


•   Quarterly Supervisory Risk Profile – Highlights DSC’s monitoring of the
    current conditions of banks, including emerging risks (and how they are
    prioritized), and the division’s supervisory response.




                                        18
                                                     APPENDIX 3
       OIG ANALYSIS OF WHETHER FAILED INSTITUTIONS WERE ON
                     THE ORL PRIOR TO FAILURE

           Institution            Date of      Latest Date        Institution     No. of    Estimated Loss to
                                  Failure      Institution       on the ORL      Quarters     the DIF as of
                                               Was Rated         4 Quarters       on the      July 31, 2008
                                                 1 or 2            Prior to       ORL
                                                                 Being Rated
                                                                    1 or 2
First Heritage Bank, N.A.a        7/25/2008        6/26/2008                No       None         $819,843,000
First National Bank of Nevada     7/25/2008       10/15/2007                No       None          $41,773,000
IndyMac Bank, F.S.B.b             7/11/2008        1/25/2008                No       None          $8.9 Billion
First Integrity Bank, N.A.        5/30/2008         7/1/2003               Yes          2           $2,346,000
ANB Financial, N.A.                5/9/2008        2/23/2007               Yes          4         $214,000,000
Hume Bank                          3/7/2008        7/16/2007                No       None           $2,618,000
Douglass National Bank            1/25/2008       11/22/2005                No       None           $6,000,000
Miami Valley Bank                 10/4/2007         4/2/2007                No       None          $18,700,000
NetBank                           9/28/2007         1/9/2006               Yes          2         $150,000,000
Metropolitan Savings Bank          2/2/2007        1/22/2007                No       None           $8,905,989
Bank of Ephraim                   6/25/2004         4/7/2003               Yes          2           $2,998,017
Guaranty National Bank of         3/12/2004        7/23/2001                No       None                    $0
Tallahassee
Dollar Savings Bank               2/14/2004        2/14/2004              No         None                   $0
Pulaski Savings Bank             11/14/2003       11/14/2003              No         None             $679,452
The First National Bank of         5/9/2003         5/9/2003              Yes           1          $12,776,628
Blanchardville
The Farmers Bank & Trust of      12/17/2002       10/15/2002               No        None          $12,204,810
Cheneyville
AmTrade International Bank of     9/30/2002          5/13/2002            Yes           1           $1,325,766
Georgia
Universal F.S.B.                  6/27/2002          6/27/2002            No         None             $274,452
NextBank, N.A.                     2/7/2002          8/20/2001            Yes           4         $114,700,478
Oakwood Deposit Bank               2/1/2002           2/1/2002            No         None          $63,802,661
  Source: The ViSION system and FDIC press releases.
 a
   N.A. – National Association.
 b
   F.S.B. – Federal Savings Bank.




                                                19
                       APPENDIX 4

CORPORATION COMMENTS
     APPENDIX 4




21
     APPENDIX 4




22
     APPENDIX 4




23
     APPENDIX 4




24
                                                      APPENDIX 5
                 MANAGEMENT RESPONSE TO RECOMMENDATIONS


This table presents the management response on the recommendations in our report and
the status of the recommendations as of the date of report issuance.

      Rec.       Corrective Action: Taken or          Monetary       Resolved:b       Open or
      No.                  Planneda                   Benefits       Yes or No        Closedc
       1        DSC and DIR will validate the           $0              Yes            Open
                assumptions and methodology
                used in SCOR by reviewing the
                offsite models that comprise
                SCOR on an annual rotational
                basis.

                DSC stated that the SCOR
                validation was completed in
                December 2008.

        2       DSC and DIT have (1) approved             $0             Yes            Open
                a regular validation schedule
                and (2) completed the first of the
                scheduled annual reviews.

        3       DSC has established the                   $0             Yes            Open
                following procedures to evaluate
                all models-based offsite
                monitoring systems: analyzing
                trends, performing statistical
                analyses of model logic and
                assumptions, and providing a
                summary of related research
                findings pertaining to the
                financial performance and
                CAMELS rating trends.

a
 In its written response to a draft of this report, DSC management stated that it concurred with the
recommendations and had completed the recommended actions. We will close the recommendations after
reviewing those actions.
b
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                    corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the
                   intent of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                   amount. Monetary benefits are considered resolved as long as management provides an
                   amount.
c
 Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive
to the recommendations, the recommendations can be closed.




                                                     25
                                                                        APPENDIX 6

               ACRONYMS USED IN THE REPORT


ARD      Assistant Regional Director
CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity, and Sensitivity
           to Market Risk
DIF      Deposit Insurance Fund
DIR      Division of Insurance and Research
DSC      Division of Supervision and Consumer Protection
FDIC     Federal Deposit Insurance Corporation
FRB      Board of Governors of the Federal Reserve System
GAO      Government Accountability Office
GMS      Growth Monitoring System
ICARuS   Internal Control Assessment Rating System
LIDI     Large Insured Depository Institution
NRC      National Risk Committee
OCC      Office of the Comptroller of the Currency
OIG      Office of Inspector General
ORL      Offsite Review List
OTS      Office of Thrift Supervision
QLA      Quarterly Lending Alert
RAC      Risk Analysis Center
REST     Real Estate Stress Test
SCOR     Statistical CAMELS Offsite Rating
TFR      Thrift Financial Report
UFIRS    Uniform Financial Institutions Rating System
ViSION   Virtual Supervisory Information on the Net




                                    26
